     November 18, 2010




                 Gordon S. Heddell
                Inspector General
              Department of Defense

                     before the
              Senate Committee on
    Homeland Security and Governmental Affairs
      Subcommittee on Contracting Oversight

                         on


“Oversight of Reconstruction Contracts in Afghanistan
   and the Role of the Special Inspector General”




                                                  REVISED
Chairman McCaskill, Ranking Member Brown, and distinguished members of this
subcommittee, thank you for the opportunity to appear before you this afternoon to
discuss our oversight efforts in Afghanistan.

As the principal oversight agency within the Department of Defense, the DoD IG is
committed to providing effective and meaningful oversight of U.S. contingency
operations in Southwest Asia. Our priorities are to improve the effectiveness of DoD
programs and to assist DoD and the Congress in identifying and deterring waste, fraud,
and abuse of taxpayer monies. Most importantly, we aim to ensure the health, safety, and
welfare of our troops. Today I will discuss the efforts of my auditors, investigators, and
evaluators in providing effective oversight in the region.

Before that, I would like to state that the coordination and cooperation among the various
oversight agencies to support our country’s collective Southwest Asia effort is a great
success story and a notable achievement/milestone in the development of effective
oversight of contingency operations.




PRESENCE IN THE REGION

Since the start of operations in Southwest Asia, over 200 DoD IG personnel have been
deployed into the region for a significant amount of time, providing “boots on the
ground” oversight. Today, the DoD IG is operating at its highest level in Southwest Asia.
At the beginning of this month, 50 DoD IG personnel were deployed in Iraq,
Afghanistan, Kuwait, and Qatar on six to 12 month rotations. In addition to
approximately 25 auditors, 2 evaluators and 18 Defense Criminal Investigative Service
(DCIS) special agents working out of seven offices – three in Afghanistan, three in Iraq,
and one in Kuwait – there are also teams of auditors, agents, inspectors and engineers
constantly entering and exiting the region on temporary duty assignments. In fact, I will
be making a trip to Afghanistan in the near future.

                                                1
During FY 2010, on average, we had 12 auditors stationed on the ground in Afghanistan
focusing in the areas of contracting, financial managment, construction, and safety. In
addition, up to 12 additional auditors per month traveled temporary duty assignments to
Afghanistan to augment the in-country teams or perform other oversight involving
contracting, financial management, and construction issues. In FY 2011, we are targeting
to have 17 auditors deployed to Afghanistan and an additional five auditors deployed to
Qatar as a rear detachment for Afghanistan oversight continuing our oversight emphasis
on contracting, financial management, and construction issues, as well as oversight
efforts related to the $14.2 billion in additional funding for Afghan Security Forces. The
personnel deployed to Qatar will travel in and out of Afghanistan on TDY, as needed, to
complete their fieldwork.

DCIS has a current in-theater work force consisting of 15 DCIS agents and one
administrative assistant currently deployed in support of Overseas Contingency
Operations (OCO). DCIS personnel in Afghanistan in FY 2011 are projected to remain
at the current level of 8 DCIS agents. These agents investigate matters involving
corruption, theft, procurement fraud, bid-rigging, product substitution and conflicts of
interest. Our investigative efforts in the region have identified corrupt business practices,
loss of U.S. funds through contract fraud, and theft of critical military equipment destined
for Coalition Forces in Southwest Asia.

In FY 2010, the Special Plans & Operations (SPO) directorate of the DoD IG placed two
personnel on the ground in Kabul and has plans to place two additional personnel in
Kandahar in FY 2011. These evaluators conduct assessments, liaison with the
commands, and support TDY teams coming into Afghanistan.




                                              2
EFFECTIVE AND EFFICIENT COORDINATION

The DoD IG has primary responsibility within the DoD for providing oversight of
defense programs and funds appropriated to the Department at home and around the
world, to include Southwest Asia. In this role, the DoD IG oversees, integrates, and
attempts to ensure there are no gaps in the stewardship of DoD resources. In furtherance
of this responsibility, the DoD IG is committed to maintaining an effective working
relationship with other oversight organizations, including other Federal agencies, to
minimize duplication of efforts and to leverage resources to provide more comprehensive
coverage. Effective interagency coordination, collaboration, and partnerships within the
oversight community are essential to providing comprehensive reviews of wartime
programs and expenditures to identify whether critical gaps exist and recommend actions
to address those gaps. Based on our experience in Southwest Asia, we have established
mechanisms to augment our core oversight coordination processes to better coordinate,
report, and share our plans, activities, and results in a contingency environment.

Special Deputy Inspector General for Southwest Asia. The Special Deputy Inspector
General for Southwest Asia (SDIG-SWA) is my senior level representative in Southwest
Asia who acts on my behalf to coordinate and deconflict oversight efforts within
Southwest Asia. The SDIG-SWA spends the majority of his time forward deployed to
Southwest Asia and continues to improve the communications within the Defense and
Federal oversight community by offering an authoritative source to coordinate and
facilitate various oversight efforts within the legal authorities of the DoD IG. The SDIG­
SWA also serves as a liaison with DoD leadership and the supporting commands in
Southwest Asia to identify oversight requirements and to facilitate interaction with
oversight organizations.

The SDIG-SWA serves as chairperson of the Southwest Asia Joint Planning Group,
established in April 2007 as the principal Federal interagency forum to promote
coordination and cooperation among the member organizations toward the common

                                             3
objective of providing comprehensive Southwest Asia oversight. The Joint Planning
Group, which meets quarterly or more frequent as needed, is made up of representatives
from over 25 DoD and Federal oversight agencies or functional components. The
Southwest Asia Joint Planning Group facilitates the compilation and issuance of the
Comprehensive Oversight Plan for Southwest Asia in response to the FY 2008 National
Defense Authorization Act, and also issued two reports that provided oversight
observations 1 and summarized the challenges 2 impacting Operations Enduring and Iraqi
Freedom.

A recent initiative of the SDIG-SWA, as the chairperson of the Southwest Asia Joint
Planning Group, is the development of a comprehensive strategy for the oversight of the
training, equipping, and mentoring of the Afghanistan National Security Forces. More
than 50 percent of reconstruction funds are going to this critical mission and the success
of efforts in this area is critical to achieving the goals of the United States. The DoD IG,
working with the other members of the Southwest Asia Joint Planning Group, plans to
have this strategy completed in the second quarter of FY 2011. Once this strategy is
finalized, the group will develop a comprehensive strategy for the oversight of contracts
and contingency contracting in Afghanistan. SIGAR reported in its October 30, 2010,
quarterly report that DoD, DoS, and USAID had obligated more than $17.7 billion to as
many as 6,900 contractors and other entities from fiscal year 2007 to fiscal year 2009.
We plan to have the strategy for oversight of contracting in Afghanistan completed by the
fourth quarter of FY 2011.

Southwest Asia Comprehensive Oversight Plan. The DoD IG, in coordination with
multiple federal Inspectors General and DoD oversight agencies, issues the
Comprehensive Oversight Plan for Southwest Asia which includes the planned and



1
    DoD OIG Report No. SDIG-SWA-10-01.
2
    DoD OIG Report No. D-2008-086.


                                              4
ongoing oversight efforts of the Inspectors General of the Department of Defense,
Department of State, and the U.S. Agency for International Development; the Special
Inspector General for Iraq Reconstruction; the Special Inspector General for Afghanistan
Reconstruction; and the ongoing efforts of the Government Accountability Office. The
plan also includes the planned and ongoing audit work of the U.S. Army Audit Agency,
Naval Audit Service, and Air Force Audit Agency. We update the Comprehensive Plan
annually, with the plan covering Fiscal Year 2011 to be issued later this month. Key
updates to the plan since its first issuance have been the inclusion of asset accountability
audits as requested by the Commander, U.S. Central Command, and Section 852 3
required oversight efforts within the Defense oversight community.

Afghanistan-Pakistan Subgroup. In May 2009, the Southwest Asia Joint Planning
Group established a new subgroup to coordinate oversight work solely in Afghanistan
and Pakistan. This subgroup was established because of concerns expressed by senior
U.S. Government and DoD officials regarding the seemingly overwhelming planned and
ongoing oversight pertaining to Afghanistan and Pakistan, the large amounts of U.S.
resources that will be expended, and the supplemental funding that several of the
statutory inspectors general received specifically for the oversight of program activity.
This subgroup, chaired by the Inspector General for the U.S. Agency for International
Development, first met in June 2009 and has met periodically since then. To provide a
focus on Afghanistan and Pakistan related oversight, the subgroup issues the
Afghanistan-Pakistan Comprehensive Oversight Plan, a subset of the Comprehensive
Oversight Plan for Southwest Asia. The subgroup plans to issue another plan in
November 2011.




3
 P.L. 110-417, Section 852, “Comprehensive Audit of Spare Parts Purchases and Depot
Overhaul and Maintenance of Equipment for Operations in Iraq and Afghanistan,”
October 14, 2008.


                                              5
Other Coordinating Activities. In addition to the Southwest Asia Joint Planning Group,
we participate in the tri-weekly U.S. Forces-Afghanistan oversight Shura. This forum
provides another opportunity for each of the oversight community in-country
representatives to update the status of their current and planned projects. This forum is
also used to notify U.S. Forces-Afghanistan and the NATO Training Mission-
Afghanistan/Combined Security Transition Command-Afghanistan of findings so that
corrective action can be taken immediately instead of waiting for reports to be issued.
The Shura is chaired by the Chief of Staff for U.S. Forces-Afghanistan. The Command
also uses the Shura as an opportunity to brief the oversight community on Command
programs. For example, at one Shura, the Command provided a briefing on its
Commander's Emergency Response Program, an area in which the DoD IG, Army Audit
Agency, and the Special Inspector General for Afghanistan Reconstruction were and
continue to coordinate ongoing and future oversight.

Our Auditing component has always had an effective and comprehensive coordination
process both internal to DoD oversight agencies and Federal oversight agencies, and uses
several means to coordinate audit efforts with other oversight agencies. First, in
developing our annual audit plan, including Southwest Asia related projects, we vet the
proposed plan with the Service Audit Agencies (Army Audit Agency, Naval Audit
Service, and Air Force Audit Agency) to identify potential duplication of effort. Second,
in announcing the start of audit projects, we coordinate each proposed audit with the
Service Audit Agencies, the Government Accountability Office and the Special
Inspectors General for Iraq and Afghanistan Reconstruction based on the proposed
oversight. Third, the Deputy Inspector General for Auditing meets quarterly with the
Service Audit Agency Chiefs to discuss current issues and efforts, including areas of
potential duplication or concerns.

In developing SPO assessment projects, we make every effort to coordinate with other
Federal oversight organizations. Further, due to the complex operational nature of SPO
assessments, SPO makes great efforts to coordinate with respective commands to 1)

                                             6
solicit input on the issue areas that we have identified, 2) solicit input on any other areas
that should be assessed, and 3) generate support for the assessment topic and especially
for the in-country portion of the assessment. To this end, we always coordinate through
the CENTCOM IG, the IGs of the respective commands in country, and, as appropriate,
with general officers in the in-theater commands.

Coordination of Investigations. Because of the magnitude and scope of alleged
criminal activity relating to Overseas Contingency Operations, DCIS continues to
collaborate with its mission partners including the Department of Justice, in order to
combat fraud, waste and abuse in Southwest Asia and to successfully prosecute criminal
violations. In addition, DCIS is involved in various task forces to deconflict and
maximize collaborative efforts.

DCIS maintains a close working relationship with the International Contract Corruption
Task Force (ICCTF), which was formed to maximize collaborative efforts to effectively
investigate and prosecute fraud and corruption criminal cases involving Southwest Asia.
The primary goal of the ICCTF is to combine the resources of multiple investigative
agencies to effectively and efficiently investigate and prosecute cases of fraud, waste, and
abuse related to U.S. Government spending in Iraq, Kuwait, and Afghanistan. The task
force, with its main operational body, the Joint Operations Center, is an effective fraud
and corruption fighting team. The ICCTF has proven to be very efficient in avoiding
duplication of efforts and effective in the sharing of resources. Perhaps most importantly,
the ICCTF has led to prompt dissemination of relevant information to all ICCTF
members.

DCIS is also assigned as a member of the Task Force 2010 and works with mission
partners such as the Departmetn of Homeland Security, SIGAR, FBI and Afghan
investigators in an effort to develop greater visibility of the flow of contracting funds
below the prime contractor level in order to better employ contracting in support of
counterinsurgency operations. The task force fuses, augments, and drives existing efforts

                                              7
to provide actionable information regarding key contracting networks, money flows, and
linkages to better utilize contracting dollars intended for the Afghan people.




DOD IG ACCOMPLISHMENTS IN AFGHANISTAN

DoD IG oversight efforts in Afghanistan, including collaborative efforts with other
agencies, have identified issues with the Afghan National Police Training; shoddy
construction; poor contract oversight, millions of dollars needlessly wasted; risks to life
and safety; bribery, fraud, and corruption; weaknesses in the visibility, accountability,
and transfer of weapons, equipment, and facilities funded with Afghanistan Security
Forces funds. In addition, we continue to find challenges in the Afghan National Forces
training efforts. Other areas of focus include military construction efforts,
implementation of information operations, force protection, Afghanistan National Police
training, and the management and execution of the expected additional $14.2 billion in
Afghanistan Security Forces funds.

Highlights of Key Afghan Related Audits: DoD IG audits have had a significant
impact on improving Afghanistan reconstruction efforts. In September 2005, we first
reported on the lack of adequate contract administration in Afghanistan to include
inadequate requirements definition, ineffective use of competition, use out-of-scope
items, and improperly awarded task orders. Our primary focus areas in Afghanistan
remain contract administration and oversight, management and execution of the
Afghanistan Security Force funds, military construction, and the training of the
Afghanistan National Police (ANP). A few highlights include:

   • Afghan National Police Training Program. As we have testified previously
       before this Subcommittee, the Department of State Civilian Police Program
       contract did not meet DoD’s needs in developing the ANP to provide security in
       countering the growing insurgency in Afghanistan. Specifically, DoS did not

                                              8
   maintain adequate oversight of Government-furnished property; maintain contract
   files as required by the Federal Acquisition Regulation; always match goods to
   receiving reports; or follow internal control procedures requiring in-country
   contracting officer’s representatives to review contractor invoices to determine if
   the costs were allowable, allocable, or reasonable prior to paying and validating
   deliverables. The DoS and DoD agreed to have DoD assume contractual
   responsibility for the primary ANP training program, which includes Regional
   Training Centers, basic ANP training, mentoring within the Afghan Ministry of
   Interior, and DoD police mentor teams embedded in ANP units in districts
   throughout Afghanistan. DoD and DoS IGs recently announced a joint follow up
   review that will include an assessment of the transition of the ANP training
   contract from DoS to DoD, assessing the cost, performance measures, and
   planning efforts associated with the transfer to ensure enhanced contract oversight.
   Additionally, once the contract is transitioned from DoS to DoD we will evaluate
   DoD contracts related to ANP to include contract award, management, and funds
   allocation.

• Construction Effort. We identified inadequate contingency construction
   contracting procedures which resulted in shoddy construction work at Bagram Air
   Field and New Kabul Compound. For example, at Bagram Air Field, we
   identified projects that were accepted in substandard condition and required $3.4
   million in extensive rework to bring newly constructed buildings in Afghanistan
   up to standard. The Combined Security Transition Command-Afghanistan
   (CSTC-A) accepted the New Kabul Compound facilities where force protection on
   the compound was inadequate, the communication infrastructure was incomplete,
   and there was no plan for continued building maintenance. Additionally, officials
   from U.S. Army Corps of Engineers, Afghanistan Engineer District, and
   Combined Security Transition Command-Afghanistan did not monitor threat
   levels during construction, did not conduct required annual evaluations for


                                         9
   compliance with force protection standards, and did not adequately coordinate or
   plan the construction or maintenance at New Kabul Compound. This resulted in
   more than $1.4 million in additional spending to fix inadequate communication
   and force protection deficiencies. New Kabul Compound sat vacant for a year
   because forces could not occupy facilities until conditions were corrected.

• Inadequate Oversight. As we identified in our report, “Contingency Contracting:
   A Framework for Reform,” May 14, 2010, one of the most frequent contract
   administration weaknesses we found was in contract oversight and surveillance.
   With our recently completed and ongoing oversight efforts of OCO contracting,
   we continue to identify a lack of sufficient and adequate contracting oversight. As
   discussed previously, one of the most significant deficiencies with the
   management of the DoS contract for the training of the Afghan National police
   was the lack of adequate contracting officer representatives to oversee the
   contractor. Other oversight efforts have also identified inadequate quality
   assurance surveillance plans for construction projects, the lack of actual oversight
   personnel and the contracting officer not requesting that the contractor for the
   Parwan Detention facility extend their bank guaranty letter to cover warranty work
   required and not properly notifying the contractor of warranty work required to
   address failures, defects, or damage by the end of the warranty period to preserve
   the Government's warranty rights.

• Afghan Security Forces Fund. Through our previous series of reviews of the
   management and execution of the Afghanistan Security Forces (ASF) funding we
   noted deficiencies with accountability, visibility, and transfer of weapons; faulty
   construction and unsafe working conditions; failure to meet contract requirements
   for real property; inadequate processes to transfer real property to the Afghans;
   and inadequate controls over the inventory or accountability of equipment
   transferred to the Afghans. In FY 2011, we will continue our oversight of the ASF
   funds as NATO Training Mission-Afghanistan (NTMC-A)/CSTC-A is expected to

                                         10
        receive about $11.6 billion in ASF funds for sustainment, infrastructure,
        equipment and transportation, and training and operations activities. 4 Oversight
        will include the transition of the ANP training program from DoS to DoD, DoD
        management of ANP, procurement of vehicles and equipment, payroll, and
        facilities construction.

    • Life and Safety. Throughout our oversight efforts the DoD IG is attentive to
        issues we identify related to the safety of Service members, DoD civilians, and
        contractors. We identified several safety issues which we addressed through the
        use of quick-action memorandums. For example, we identified problems with
        buildings constructed in Afghanistan . Specifically, the contractor did not
        adequately install and maintain the electrical and fire suppression systems so that
        they operated in accordance to contract requirements and applicable building
        codes. We found serious issues with the New Kabul compound design and
        construction, which resulted in potential risks to the life and safety of U.S.
        personnel.

DCIS Highlights in Afghanistan: DCIS has been engaged in investigations involving
DoD operations in Iraq, Kuwait, and Afghanistan since 2003. As a result of the
magnitude and scope of alleged criminal activity relating to OCO, DCIS has made
criminal investigations of contract fraud and corruption related to U.S. operations and
reconstruction efforts in Iraq and Afghanistan an agency priority. As of September 30,
2010, DCIS had a total of 241 open investigations related to Overseas Contingency
Operations and the agents in Southwest Asia were actively working 41 investigative
cases or proactive projects in theater. DCIS will continue to focus on protecting the
warfighter by investigating significant fraud and corruption impacting crucial DoD
operations throughout Southwest Asia, with particular emphasis on schemes that


4
 An additional 2.6 billion was appropriated for ASF in the FY 2010 Supplemental Appropriations Act, P.L. 111-212,
to remain available until September 30, 2011.


                                                       11
potentially affect the health, safety, welfare, and mission-readiness of U.S. troops
assigned to theater.

One area where we have directed a great deal of investigative attention has been the
Commander’s Emergency Relief Program and other civil works project contracts
awarded to Afghan companies. CERP funds are intended to swiftly provide payment to
local contractors for civil work projects. The CERP bolsters the “Afghan First” program
which promotes hiring Afghan companies and Afghan personnel to construct needed
roads and facilities to support the development and expansion of the Afghan government
and organizations, but have proven problematic. For example, the use of U.S. currency
and vouchers versus electronic funds transfers and a payment process with critical
internal control weaknesses makes this program vulnerable in an environment and culture
where fraud and corruption are habitual.

Of the 241 open investigations related to Overseas Contingency Operations, 68 percent of
those investigations are related to bribery and financial crimes. Eleven percent of the
investigations are related to theft, eight percent are kickback investigations, and eight
percent are product substitution investigations. The remaining five percent of the OCO
investigations relate to general crimes, technology transfer, and terrorism investigations.
The following are two significant case examples that demonstrate the successful
collaborative effort with our mission partners in Southwest Asia:

Between January and February 2010 a former U.S. Army sergeant stationed in
Afghanistan admitted to aiding and abetting a co-conspirator’s solicitation and
acceptance of more than $400,000 in bribes from a government contractor, all in
exchange for his co-conspirator’s creation and submission of fraudulent paperwork
permitting that contractor to steal fuel from Forward Operating Base Shank. The
sergeant also admitted to helping his co-conspirator conceal the money in various
locations in and around FOB Shank. The total value of the fuel stolen during the course
of the scheme was at least $1.39 million. This case resulted in the former U.S. Army

                                             12
sergeant pleading guilty to bribery in connection with a fuel theft scheme to solicit bribes
from a government contractor in Afghanistan. As a result, a second former U.S. Army
sergeant was charged with a single count of conspiracy to commit theft of government
property in a criminal complaint filed in Eastern District of Virginia on June 24, 2010.
The sergeants were stationed at FOB Shank, in support of U.S. military operations in
Afghanistan. The sergeant that pled guilty had responsibilities that included supervision
of FOB Shank’s fuel redistribution process. At sentencing, he faces a maximum penalty
of 15 years in prison and a fine of $250,000; twice the gross gain or loss from the
scheme; or three times the value of the payments solicited or received. The two former
sergeants have also been suspended by the Department of Army. This was a joint
investigation by the following members of the ICCTF: DCIS, Army CID and FBI.

On August 7, 2009, two dual Afghan/U.S. citizens pled guilty after being charged with
conspiracy and bribery in connection with a scheme to offer $1 million in bribes to a U.S.
Army contracting official to influence the award of a road construction contract in
Afghanistan. The two subjects allegedly offered a bribe of $1 million to the Contracting
Officer’s Representative in return for the award of the Commander’s Emergency
Response Program project. The CERP project was for the construction of a road from
Pule Alam, Afghanistan to Akundkhel, Afghanistan. The subjects estimated they could
construct the road for about $9 million; however, they intended to bid $18 million for the
project and offered the COR $1 million in exchange for the COR’s influence in awarding
them the contract. The contractors threatened that if they did not get the award, they
would use their political connections to blacklist the awardees and DoD’s efforts to fulfill
the contract would be severely disrupted. On November 13, 2009, the subjects were each
sentenced to 48 months confinement followed by 36 month of propation, and ordered to
pay $30,000 in fines. This case was the result of efforts by the International Contract
Corruption Task Force members, including DCIS, the FBI and Army CID.

Overall Southwest Asia statistical data (including Afghanistan) for DCIS investigations
since September 27, 2003 to present consists of 180 criminal charges ; 88 arrests; 120

                                             13
felony convictions; 44 debarments; 155 suspensions; $55,899,148 in fines, penalties and
other monetary recoveries; $19,469,964 in forfeitures; $2,239,293 in recovered property
and $203,335,400 paid to the U.S. in restitution.

For Afghanistan alone, since August 5, 2004 to present, DCIS investigations have
resulted in: 71 criminal charges; 37 arrests; 44 convictions; six debarments; 31
suspensions; $5,395,782 in fines, penalties and other monetary recoveries; $546,627 in
forfeitures; $17,198 in recovered government property and $55,239,385 paid to the U.S.
in restitution.




Special Plans and Operations:

SPO has conducted a number of assessments that have had relatively immediate impact
on national security challenges in Afghanistan, including:

• Identifying contracting-related bottlenecks that would impede development of the
   infrastructure necessary to support expansion of the Afghan National Security Forces.

• Improving the capability of the U.S. military to provide accountability and control of
   weapons and ammunition supplied to the Afghan National Security Forces, thus
   limiting fraud, waste and abuse concerning this equipment and protecting a significant
   investment of U.S. funds used in its purchase.

• Increasing the capacity of the U.S. Security Assistance Office to provide equipment
   required to rapidly expand the Afghan National Security Forces.

• Implementing a U.S. Congressionally-legislated requirement and DoD directive for
   the U.S. Security Assistance Office oversight of sensitive defense technology supplied
   the Afghan National Security Forces.



                                            14
• Identifying significant constraints that could have prevented execution of U.S. plans
   to expand the Afghan National Security Forces, thereby facilitating their growth and
   capability to operate without dependency on U.S. forces.




LESSONS LEARNED REGARDING OVERSIGHT

As an organization we have gained valuable experience in terms of establishing an in-
theater presence and deploying auditors, investigators, evaluators and inspectors. An in-
theater presence is essential to ensuring visibility of oversight operations as well as
reaching out to the military and civilian leadership in-theater to ensure our oversight is
meaningful, effective, and on target.

One of the most important lessons we have learned is the value of having the Special
Deputy IG for Southwest Asia as our single point of contact in the region for
coordinating oversight efforts and to ensure effective communication with the senior
civilian leadership and the Commanders in the theater. This is key for minimizing the
impact on the daily operation of the activities we visit, and provides those activities a
single point of contact.

Another important lesson learned is that contracting in a contingency environment
presents many challenges. In May 2010, we summarized our experiences in the report
“Contingency Contracting: A Framework for Reform”. This report identified key
systemic contingency contracting issues and identified actions that need to be taken to
correct these issues for future contracting. DoD components, including NTM-A/CSTC-A
and the Army Contracting Command, proactively leveraged this product as a tool to
improve their contracting efforts. NTM-A/CSTC-A referred to the report as an
“…absolutely first rate document on best and worst practices of contracting in a
contingency environment.”



                                              15
The U.S. and coalition efforts to establish, support, and maintain a sovereign, free and
democratic Afghanistan require a broad spectrum of U.S. and coalition capabilities, both
military and civilian. The oversight organizations within their respective statutory
authorities and standing expertise need to be proactively engaged. It is absolutely
essential that the full spectrum of the supporting oversight community (Inspectors
General, Service audit and investigative agencies, GAO, and others) work in concert to
ensure effective and efficient oversight.

I want to assure the committee that we are intensifying our oversight in Afghanistan and
providing leadership in an effort to ensure interservice and interagency collaboration.
Fostering an open dialogue and coordinating and integrating our efforts within the
oversight community are critical to providing effective oversight in Afghanistan. The
Federal oversight community has established an historic and unprecedented level of
cooperation and coordination, including all the members present today. We are
collectively deterring and detecting fraud, waste, and abuse, improving efficiencies in
operations as well as protecting our warfighters, civilians, and contractors.

In closing, I would like to thank the Subcommittee for the opportunity to discuss our
work in Afghanistan and look forward to continuing our strong working relationship with
the Congress and with all oversight organizations in Southwest Asia. I look forward to
answering any questions you may have.




                                             16
